Washington, D.C. 20530

September 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Tony Brown v. United States of America,
S.Ct. No. 20-5064
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 15, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 21, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5064
BROWN, TONY
USA

JOHN C. LEMON
LAW OFFICES OF JOHN C. LEMON, APC
1350 COLUMBIA STREET
STE. 600
SAN DIEGO, CA 92101
619-794-0423
JOHN@JCL-LAWOFFICE.COM

